ANNUAL PERFORMANCE REPORT
         FY 2006
 ANNUAL PERFORMANCE PLAN
         FY 2007




     U.S. DEPARTMENT OF ENERGY

    OFFICE OF INSPECTOR GENERAL
THIS PAGE INTENTIONALLY LEFT BLANK
Message from the
Inspector General

I am pleased to present the Office of Inspector General’s (OIG’s) combined Fiscal Year 2006
Annual Performance Report and Fiscal Year 2007 Annual Performance Plan.

During Fiscal Year (FY) 2006, we examined a variety of issues of vital importance to the
Department of Energy and the Nation. Our efforts identified the need for corrective action
on an array of issues ranging from systemic and situational vulnerabilities in Department
security to cost and performance irregularities associated with the Nation’s nuclear weapons
stockpile to the need for improved management oversight in the administration of
Department contracts.

To its credit, in FY 2006, the Department, as a strategic goal, emphasized the need for
excellence in managing its programs and operations. This has been a focal point of the OIG
for a number of years and drives the planning for OIG activities in FY 2007 and beyond. In
FY 2006, we issued more than 100 audit and inspection reports containing recommendations
for enhancing Departmental operations, with likely savings of over $250 million. In addition,
we referred 50 criminal cases for prosecution; obtained 26 convictions; recovered $38.6
million in fines, restitutions and settlements; and, addressed 1,632 complaints and concerns
from employees, contractors and citizens regarding the Department and its functions.

The OIG is proud to have played a critical role this past year in providing Department of
Energy senior management with findings intended to improve the effectiveness of programs
and operations. In this vein, the OIG is committed to supporting the Secretary’s recently
released strategic plan and in working with senior management to advance the Department’s
mission of addressing U.S. energy challenges and in securing America’s future.




                                                   Gregory H. Friedman
                                                   Inspector General




                                              i
OFFICE   OF   INSPECTOR     GENERAL                  U.S.   DEPARTMENT        OF   ENERGY
THIS PAGE INTENTIONALLY LEFT BLANK
Table of Contents
                                                                                                                        Page

Overview, Vision and Mission . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Measuring FY 2006 Performance Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

FY 2006 President’s Management Agenda and
OIG-Identified Management Challenge Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

Relationship with the Department of Energy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

FY 2007 Funding Priorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

FY 2007 Annual Performance Plan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

Office of Audit Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

Office of Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

Office of Inspections and Special Inquiries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

Appendix A
   FY 2007 Performance Plan Schedule . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

Appendix B
   OIG Responsibilities and Authorities and Other Mandates . . . . . . . . . . . . . . . . . . . . 59

Appendix C
   OIG Organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61

Appendix D
   Validation and Verification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63




                                                              iii
OFFICE       OF    INSPECTOR           GENERAL                           U.S.      DEPARTMENT              OF    ENERGY
THIS PAGE INTENTIONALLY LEFT BLANK
Overview, Vision and Mission

A    s mandated by the Inspector General Act of 1978, as amended, the Office of Inspector
     General promotes the effective operation of the Department of Energy (Department),
including the National Nuclear Security Administration (NNSA) and the Federal Energy
Regulatory Commission (FERC). This is accomplished through audits, investigations, and
inspections designed to improve economy and efficiency and to detect and prevent fraud,
waste, abuse, mismanagement, and violations of law. As part of a collective effort, the
OIG’s goal is to ensure that the Department is:
   ■   Fulfilling its program goals effectively;
   ■   Using its resources efficiently in this pursuit;
   ■   Operating within the scope of its legislative mandates;
   ■   Meeting the President’s Management Agenda; and,
   ■   Addressing Departmental priorities established by the Secretary.

This report highlights the OIG’s FY 2006 actual performance and FY 2007 planned
activities. The goals, objectives, and strategies included in this document will be used to
plan, measure and report on OIG results. This document includes the results of FY 2006
investigations, inspections, audit and special requested actions; constant efforts to improve
the OIG in alignment with the President's Management Agenda; the relationship between
the Department and the OIG; and the plan to fund and accomplish FY 2007 goals.
Appendices include the FY 2007 performance plan schedule; OIG responsibilities,
authorities and other mandates; the OIG organization and, validation and verification of
OIG performance activities.


Vision:
To be a highly effective organization that promotes positive change by identifying
opportunities for improvements in the performance and efficiency of the Department’s
programs and operations.


Mission:
To promote the effective, efficient, and economical operation of the Department through
audits, investigations, inspections, and other reviews to detect and prevent waste, fraud,
abuse, and violations of law.




                                                   1
OFFICE     OF   INSPECTOR      GENERAL                    U.S.   DEPARTMENT     OF   ENERGY
THIS PAGE INTENTIONALLY LEFT BLANK
Measuring FY 2006
Performance Results

I   n FY 2006, the OIG continued to make positive contributions to the Department’s
    mission-related priorities. Some highlights of our work in FY 2006 include:
     ■   $251 million in recommendations that funds be put to better use;
     ■   $38.6 million in investigative fines, settlements, and recoveries;
     ■   26 successful prosecutions;
     ■   43 suspensions and debarments;
     ■   1,632 hotline complaints and inquiries processed;
     ■   102 civil or administrative actions taken; and,
     ■   Approximately $157 million in potential recoveries from 23 open False Claims
         Act investigations.


The OIG measures its performance against the long-term and annual goals set forth in
OIG planning documents. During this reporting period, the OIG successfully achieved its
FY 2006 performance goals. In most instances, the OIG exceeded its goals. The following
are the specific results:


Goal 1:
     Promote the President’s Management Agenda and the Mission Priorities of the Secretary
     and Congress

Objective 1:
     Conduct reviews seeking positive change in the Department relating to the
     implementation of the initiatives in the President’s Management Agenda, the Secretary’s
     Priorities, and the OIG-identified Management Challenges.

Strategy:
    Conduct reviews as outlined in the OIG annual plan relating to: (1) the President’s
    Management Agenda initiatives; (2) the Secretary’s Mission Priorities; and, (3) OIG-
    identified Management Challenges. Specifically:
           ●   Complete reviews that address each Presidential, Secretarial, and OIG-identified
               initiative, priority, and/or challenge as identified in FY 2005, to be completed
               by 2011.


                                                   3
OFFICE         OF   INSPECTOR    GENERAL                   U.S.   DEPARTMENT       OF   ENERGY
                                                                   Measuring FY 2006 Performance Results




         ●   Initiate a review within one year of any new Department initiatives and priorities.

Accomplishment: Met Goal
The OIG has completed reviews that address every Presidential, Secretarial, and OIG-
identified initiative, priority, and/or challenge as identified in FY 2005. There were no new
Department initiatives or priorities established in FY 2006.

During FY 2006, the Office of Audit Services conducted a total of 81 audits that addressed
the President’s Management Agenda Initiatives, the Secretary’s Mission Priorities, and OIG
Management Challenges. For example, audits were conducted to determine whether:
   ■   Recently completed radio transition projects were cost-effective and maximized
       spectrum efficiency.
   ■   The Department was effectively managing the acquisition and maintenance of desktop
       software across the complex.
   ■   The Department had established, maintained and effectively used the Beryllium
       Associated Worker Registry to evaluate worker health effects associated with
       beryllium exposure.
   ■   The assignment of facility contractor employees to the Washington, D.C. area was
       adequately managed.
   ■   The Department was adequately managing its non-nuclear high explosives materials.

During FY 2006, the Office of Inspections and Special Inquiries completed 36 reviews that
addressed the President’s Management Agenda initiatives, the Secretary’s Mission Priorities,
and OIG-identified Management Challenges. For example, the Office conducted reviews to
determine if:
   ■   Internal controls for the destruction of Sandia National Laboratory-New Mexico’s
       classified computer hard drives were adequate to assure the protection and control of
       the classified matter.
   ■   Sandia National Laboratory-New Mexico’s and Lawrence Livermore National
       Laboratory’s internal controls were adequate to ensure that, in accordance with
       applicable policies and procedures: (1) security badges assigned to terminating
       Laboratory and subcontractor employees were retrieved at the time of their departure;
       and, (2) security clearances of departing Laboratory and subcontractor employees were
       terminated in a timely manner.
   ■   The Department appropriately participated in the export license review process to
       control the export of critical technologies to China.
   ■   Internal controls over sensitive property maintained by the Office of Intelligence at
       Headquarters were adequate.



                                                 4
OFFICE       OF   INSPECTOR     GENERAL                  U.S.   DEPARTMENT            OF   ENERGY
Measuring FY 2006 Performance Results




    ■   The Office of Civilian Radioactive Waste Management’s process for reviewing emails
        related to Yucca Mountain quality assurance concerns assured that conditions adverse
        to quality were promptly identified, investigated, reported, and resolved.


GOAL 2:
    Improve economy and efficiency and reduce waste, fraud, and abuse within
    the Department

Objective 2:
    Concentrate OIG efforts on issues that have the greatest impact and usefulness to
    the Department.

Strategies:
    ■   Ensure that every performance review includes an analysis of program
        accomplishments and the use of metrics to measure results.
    ■   Increase by at least 10 percent the OIG baseline measure of ensuring that at least 50
        percent of all performance audits include recommendations leading to demonstrable
        cost savings, program efficiencies, and/or funds that can be put to better use.
    ■   Complete at least five follow-up reviews annually to determine the status and efficacy
        of corrective actions.
    ■   Complete an annual risk-based programmatic assessment that considers OIG
        institutional knowledge; past program performance; funding levels; Presidential,
        Secretarial, and congressional concerns; and input from Department
        program managers.
    ■   Ensure that each year at least 80 percent of all planned performance audits address
        high-risk areas as identified in the OIG annual risk-based programmatic assessments.
    ■   Strive for the Department to accept at least 75 percent of OIG report
        recommendations.

Accomplishment: Exceeded Goal.
In FY 2006, all of the 52 performance audits completed included an analysis of program
accomplishments and the use of metrics to measure results. The OIG was able to assist the
Department in analyzing the operation of various programs and determining whether or not
those programs were effectively measuring their performance.

For the performance audits issued, 73 percent identified demonstrable cost savings, program
efficiencies and/or funds that can be put to better use in excess of $251 million. For
example, the Department agreed to improve the efficiency of its fleet vehicle management as
a result of our audit on “The Department’s Utilization of Fleet Vehicles,” DOE/IG-0728. The


                                                5
OFFICE      OF   INSPECTOR          GENERAL             U.S.   DEPARTMENT        OF   ENERGY
                                                                 Measuring FY 2006 Performance Results




Department could potentially save $9.1 million annually if those vehicles whose
underutilization rates were less than 50 percent of the local use standard were disposed of
and the remainder of underutilized vehicles were either appropriately reassigned or their
retention justified.

Based on our audit of “Information Technology Support Services at the Department of Energy’s
Operating Contractors,” DOE/IG-0725, there is a potential for significant cost savings at
numerous Department contractor-managed sites through better management and control of
information technology (IT) support services. For example, reducing IT support services
for contractor-managed sites co-located at the Hanford complex near Richland, Washington,
could save over $14 million.

Based on our audit of “Management of the Department’s Isotope Program,” DOE/IG-0709,
the Department expended about $4.9 million maintaining unused or underutilized
production facilities that could be avoided or better utilized to subsidize research isotope
production or to waive the advancement payment policy.

Nine of the performance audits completed were follow-up reviews to determine the status
and efficacy of corrective actions.

Fundamental to the annual audit planning process is conducting risk assessments and the
development of audit profiles. The OIG considers all major contractor sites to be high risk.
Other considerations include OIG institutional knowledge; past program performance;
funding levels; and Presidential, Secretarial, and congressional concerns. In FY 2006, we
completed risk-based programmatic assessments in the energy, science, environmental,
national nuclear security, and technology program areas and corporate functions. These risk
assessments resulted in the identification of significant auditable entities at various
Department locations. Another part of our audit planning process includes input from
Department management, other interested parties, and the OIG staff.

In FY 2006, 90 percent of our planned performance audits addressed high-risk and sensitive
areas as identified in the OIG annual risk-based programmatic assessments. In addition to
our planned audits, we also conducted audits in response to time-sensitive and complex
requests from the Secretary or Congress. For example, a Senator requested that the OIG
review the composition and conduct of the National Coal Council (Council). Specifically,
the Senator raised concerns that the Council’s recent report did not reflect input from a
“broad spectrum of diverse interests” and that before doubling of coal consumption could
be supported, environmental problems must be solved. Accordingly, our review examined
whether the membership and conduct of the Council complied with the requirements set
forth in the Federal Advisory Committee Act. During the course of our review, the
Department initiated an effort to address issues of fairness by taking steps to broaden council
representation as well as initiating an additional study to address environmental concerns.




                                              6
OFFICE   OF   INSPECTOR      GENERAL                   U.S.   DEPARTMENT            OF   ENERGY
Measuring FY 2006 Performance Results




Finally, there were 99 audit recommendations included in the performance audits conducted
in FY 2006. The Department concurred with 100 percent of our recommendations. The
following are summaries of positive outcomes resulting from three significant audits:
     ■   The Department took action to
         examine alternative missions for
         H-canyon operations that may keep
         it operating well beyond FY 2010.
         Our report disclosed that there have
         been delays in developing and
         implementing a spent nuclear fuel
         program at Savannah River; and,
         as a result, H-Canyon will have
         to be maintained in an idle, but
                                                   H-Canyon
         operational mode for at least two
         years. The OIG found that given the commitment the Department made in the
         Record of Decision and the absence of a fully developed disposition strategy, the two-
         year gap is projected to cost taxpayers about $300 million.
     ■   After an OIG audit of the Management of the Department’s Desktop Computer
         Software Enterprise License Agreements, the Department agreed that an enterprise-
         wide asset management system must be implemented to identify an accurate
         accounting of software used across the complex and had recently initiated proactive
         steps relative to the recommendations in our report.
     ■   An OIG audit on the accelerated tank waste retrieval activities at the Hanford Site
         found that, in terms of both schedule and cost, the Department will not meet its Tri-
         Party Agreement milestone for the retrieval of waste from the single-shell tanks located
         at the C-Farm. In addition, the likelihood of meeting Departmental schedule or cost
         goals for completion of retrieval activities in the C-Farm is questionable. Accordingly,
         the Department agreed with our recommendations to update waste retrieval plans and
         baselines to show achievable and realistic cleanup commitments.




Salt cake formed in a single shell tank.




                                                     7
OFFICE        OF    INSPECTOR              GENERAL       U.S.   DEPARTMENT        OF   ENERGY
                                                                   Measuring FY 2006 Performance Results




In FY 2006, the Office of Inspections and Special Inquiries ensured that all 19 performance-
based inspections completed included an analysis of program accomplishments and the use
of metrics to measure results (or documented the reason that an analysis was not appropriate
or required). For example, an inspection at Lawrence Livermore National Laboratory found
that the site’s Human Reliability Program (HRP), which was established to address the need
for individuals involved in the nuclear weapons program to meet the highest standards of
reliability, including physical and mental suitability, did not have specific performance
metrics to measure significant aspects of the program. Specifically, although the Laboratory
conducted annual reviews of HRP files, this effort was not sufficiently comprehensive to
ensure the HRP was being administered in accordance with applicable policy, which, in
turn, helps ensure site security.

In FY 2006, the Office of Inspections and Special Inquiries issued 27 inspection reports,
which contained a total of 78 recommendations to management. The Department
concurred with 92 percent of the inspection recommendations. The following are examples
of positive outcomes resulting from inspection recommendations:
   ■   The Department tasked the National Academies of Science to conduct an assessment
       of scientific and technical issues related to groundwater monitoring and contamination
       mitigation at Los Alamos National Laboratory to ensure that specific constraints
       established in Resource Conservation and Recovery Act guidance are adhered to and
       that radionuclide and groundwater contamination data is reliable.
   ■   The Department’s Strategic Petroleum Reserve is implementing Homeland Security
       Presidential Directive 12, to ensure that appropriate background checks are conducted
       on current Federal, contractor, and subcontractor personnel, as well as all new-hires.
   ■   To address training concerns related
       to protective force personnel at the
       Department’s Oak Ridge
       Reservation, the security contractor
       installed an automated badge reader
       system at its Central Training Facility
       to track the actual time spent in
       training by Security Police Officers.
   ■   The Pantex Site Office implemented
       additional processes to improve the
       receiving and inventorying of           Security Training at Oak Ridge National Laboratory
       property to ensure that all sensitive
       property is properly tagged and entered into the Pantex Property System database in a
       timely manner.




                                                 8
OFFICE     OF   INSPECTOR      GENERAL                   U.S.   DEPARTMENT            OF   ENERGY
Measuring FY 2006 Performance Results




Objective 3:
    Provide timely information to the Department so that prompt action can be taken to
    improve program performance.

Strategies:
    ■   Issue at least 80 percent of audit reports no later than 60 days following receipt of
        management comments.
    ■   Complete the field work for at least 75 percent of special inquiries within
        60 work days.
    ■   Ensure that the average time required to issue an Investigative Report to Management
        (IRM) is 60 days or less following resolution of criminal and civil investigations.
    ■   Complete the field work for at least 80 percent of inspections within 90 work days.


Accomplishment: Exceeded Goal.
For the audit reports completed in FY 2006, 88 percent were issued within 60 days
following receipt of management comments, providing timely information to Department
management.

During FY 2006, the Office of Inspections and Special Inquiries initiated one special
inquiry, and it was completed within 60 work days of initiation. The special inquiry
involved reviewing the processes and costs of environmental remediation at the Rocky
Mountain Oilfield Testing Center (RMOTC). Our review found that entities that
conducted research and development activities at RMOTC were not held responsible for
environmental remediation associated with their activities. We were advised by RMOTC
officials that they had not directly evaluated whether environmental remediation costs
should be a consideration in the Cooperative Research and Development Agreements that
are negotiated with these entities. To clarify the legal and policy issues involved, we
suggested that management seek a legal opinion from the Department’s General Counsel.

IRMs were issued, on average, 50 days following final resolution of criminal and/or civil
action. The OIG received responses to recommendations made in IRMs during FY 2006,
with a 98 percent compliance rate. Department management took administrative action
against 44 individuals and obtained 21 debarments of contractors and individuals.

Examples of successes resulting from OIG investigative recommendations to management
include the following:
    ■   A GS-14 FERC employee misused Government time and equipment to work on a
        personal business enterprise. The employee was counseled and reimbursed the
        Government over $10,000.



                                                 9
OFFICE      OF   INSPECTOR          GENERAL              U.S.    DEPARTMENT        OF   ENERGY
                                                                  Measuring FY 2006 Performance Results




   ■   A Department National Laboratory contractor employee pled guilty to Petit Larceny,
       paid restitution of $11,570 to the Government, and was debarred for misusing a
       Laboratory computer and assigned credit card to purchase automotive parts for a
       personal vehicle.
   ■   A Department prime contractor agreed to reimburse the Department $237,724 for
       unallowable costs associated with the Research Education Foundation Internship
       Program.
   ■   A former Western Area Power Administration contractor was debarred because it failed
       to return $284,151 mistakenly transferred to the contractor’s bank account after the
       contract was terminated for default.

In FY 2006, the Office of Inspections and Special Inquiries completed the fieldwork for
91 percent of its inspections within 90 work days. The following are examples of
inspection findings:
   ■   Internal controls for the destruction of Sandia National Laboratory-New Mexico’s
       classified hard drives were not adequate to assure the protection and control of the
       classified material. Specifically, our inspection confirmed that although classified hard
       drives were degaussed, they were not destroyed as required by Department policy. In
       addition, Sandia did not adhere to a number of other policies applicable to the
       destruction of classified hard drives.
   ■   Surface lead dust contamination in certain areas of a Nevada Test Site building
       exceeded site threshold levels, and the site prime contractor had not followed
       Occupational Safety and Health Administration requirements to make these areas
       “as free as practicable” of lead dust. We also found that the site had not
       consistently implemented radiological control requirements for managing sealed
       radioactive sources.
   ■   Internal controls over badge retrieval and security clearance termination at Sandia
       National Laboratory-New Mexico and Lawrence Livermore National Laboratory were
       not adequate to ensure that security badges assigned to terminating employees were
       retrieved at the time of departure or that security clearances were terminated in a
       timely manner.
   ■   Inadequate controls existed over sensitive property in the Office of Intelligence (IN).
       Specifically, we found: (1) IN could not locate 18 items of sensitive computer
       processing equipment and was unable to determine if these items were used to process
       classified information; (2) IN officials had not reported missing property to the Office
       of Security, as required by Department policy; and (3) IN maintained items of
       sensitive property that had not been entered into its property inventory, as required by
       Department policy.




                                               10
OFFICE     OF   INSPECTOR     GENERAL                   U.S.   DEPARTMENT            OF   ENERGY
Measuring FY 2006 Performance Results




    ■   The Oak Ridge Reservation protective force contracts did not include incentives for
        the contractor to reduce overtime; in fact, the contract structure had the opposite
        effect. Specifically, the contracts provided the contractor with additional profit from
        the increases in labor hours in the post 9/11 environment, even though the contractor
        was only supposed to receive its profit through an award fee.

Objective 4:
    Strengthen financial management and cyber security through completion of mandatory
    reviews in accordance with Office of Management and Budget and other applicable
    requirements.

Strategies:
    ■   Complete annually the Department’s consolidated financial statement audits to
        determine whether the financial statements are free from material misstatement.
    ■   Review the Department’s classified and unclassified information security system
        programs in conjunction with the financial statement audit.
    ■   Initiate at least 10 “Statement of Costs Incurred and Claimed” audits annually to
        assess internal controls over costs claimed by the Department’s major contractors.

Accomplishment: Met Goal.
The OIG completed the audit of the Department's FY 2006 consolidated balance sheet and
rendered a qualified opinion on November 13, 2006. The qualified opinion was due to the
effects of not properly accounting for and reporting undelivered orders. The control
deficiencies were caused primarily by unresolved issues associated with the Department's
implementation of a new financial accounting system, the Standard Accounting and
Reporting System (STARS), in FY 2005.

In conjunction with the financial statement audit, we completed reviews of the
Department's unclassified information security systems as required by the Federal
Information Security Management Act (FISMA) of 2002. We found that the Department
had taken a number of steps to strengthen its cyber security posture. While these steps are
positive, we continued to observe deficiencies that exposed its critical systems to an
increased risk of compromise. As permitted by FISMA and as designated by the Secretary,
the Office of Independent Oversight and Performance Assurance performed the annual
review of classified information systems.

Finally, we completed 15 "Statement of Costs Incurred and Claimed" audits to determine
whether the Department's integrated contractors were reimbursed for allowable costs
consistent with their contracts.




                                                11
OFFICE      OF   INSPECTOR          GENERAL             U.S.   DEPARTMENT        OF   ENERGY
                                                                   Measuring FY 2006 Performance Results




Objective 5:
   Concentrate investigative efforts on allegations of criminal and civil violations of law
   that adversely impact major Department programs and operations, with emphasis on
   maximizing the recovery of public resources and deterring future wrongdoing.

Strategies:
   Achieve an annual acceptance rate of at least 70 percent for cases presented for
   prosecutorial consideration.

   Ensure that at least 75 percent of all cases opened focus on key areas of Department
   vulnerability, specifically procurement and grant fraud, environmental violations, Qui
   Tams, or computer crimes.

Accomplishments: Exceeded Goal.
The OIG achieved a prosecutorial acceptance rate of 76 percent during this fiscal year. In
addition, the OIG obtained 52 criminal indictments and 35 convictions, pretrial diversions,
and civil judgments. Eighty-three percent of the cases opened in FY 2006 focused on key
areas of vulnerability in the Department.

Examples of successes as a result of OIG investigations include:
   ■   An OIG investigation determined that a Department subcontractor did not comply
       with welding and nondestructive test requirements for valves manufactured under
       various Government contracts. The subcontractor entered into a $13.2 million civil
       settlement with the Department of Justice, Civil Division to settle a civil claim.
       Additionally, the subcontractor was sentenced to 24 months incarceration and 3 years
       supervised release and was ordered to pay $4 million in restitution.
   ■   A Department grant recipient submitted duplicate research results to more than one
       agency for payment; billed for research reportedly done in-house that was improperly
       subcontracted to others; and submitted invoices for personal purchases. The subject
       agreed to pay $1.4 million pursuant to a global settlement. The subject was also
       sentenced to 5 years probation and 12 months home confinement and was ordered to
       pay a $20,000 fine and a $200 special assessment fee. The individual was also
       debarred from Government contracting for a 5-year period.
   ■   A university that manages a consortium of 16 other universities received Department
       grant funds under a cooperative agreement to further the goal of training a minority
       workforce in environmental sciences. The university did not use all of the grant funds
       for their intended purpose and submitted false documentation showing that they had
       matched the Federal funding. Pursuant to a settlement agreement, the subject agreed
       to pay $5.2 million to the Government and implement policies and procedures to
       ensure compliance with regulations governing the use of grant funds. Also, the
       consortium principal investigator was removed from his position.


                                              12
OFFICE    OF   INSPECTOR     GENERAL                  U.S.   DEPARTMENT               OF   ENERGY
Measuring FY 2006 Performance Results




    ■   Three individuals knowingly compromised multi-Government agency computers,
        including an unclassified Department computer in Germantown, Maryland, and
        copied non-sensitive scientific research data information. One subject was sentenced
        to 10 months in prison and 3 years supervised release. A second subject was sentenced
        to 90 days home confinement and 2 years probation. A third subject was sentenced to
        60 days in a work related program, 2 years probation, and 100 hours of community
        service and was ordered to refrain from doing any work related to computer security.

Objective 6:
    Coordinate with other law enforcement agencies to establish effective networks in order
    to identify areas that are most vulnerable to waste, fraud, and abuse.

Strategy:
    Ensure that at least 25 percent of all cases opened are joint task force investigations
    with external law enforcement agencies, such as the Federal Bureau of Investigation and
    other OIGs.

Accomplishments: Exceeded Goal.
The OIG opened 131 cases during FY 2006, 42 percent of which were joint task force
investigations with other law enforcement agencies. The following are examples of successes
from joint task force investigations:
    ■   A Department contractor submitted false claims and statements by misrepresenting
        the cost impact of a voluntary accounting system and by improperly allocating various
        costs on numerous Government contracts. Those costs included general and
        administrative costs, executive and management bonuses, and computer network costs.
        The contractor entered into a $12.5 million civil settlement with the U.S.
        Government.
    ■   Three employees manufactured and stole various forms of identification, including
        Department credentials, to facilitate fraudulent activities. Over 100 victims were
        identified during the investigation. Two subjects pled guilty to various Federal
        criminal violations. One subject was sentenced to 12 years and 1 month
        imprisonment and 3 years of supervised release; while the other subject was sentenced
        to 6 years imprisonment and 3 years supervised release, along with forfeiture of stolen
        Government property.
    ■   A Department contractor failed to adjust travel costs for credits and/or rebates received
        from travel vendors. The contractor entered into a $41.9 million civil settlement with
        the U.S. Government. As a result of the investigation, four additional Department
        contractors settled lawsuits concerning false claims allegedly submitted to various
        agencies in connection with travel reimbursement. One consultant paid $15 million,
        while three other companies paid $3.3, $4.4 and $2.7 million, respectively.



                                                13
OFFICE      OF   INSPECTOR          GENERAL              U.S.   DEPARTMENT        OF   ENERGY
                                                                 Measuring FY 2006 Performance Results




Objective 7:
   Heighten awareness of potential fraud among internal and external customers.

Strategy:
   Provide at least 20 fraud awareness briefings annually to Department and contractor
   employees and managers.

Accomplishments: Exceeded Goal.
The OIG investigative personnel conducted 45 fraud awareness briefings in FY 2006.
These presentations are designed to discuss the process for reporting fraud, waste, and abuse
to the OIG and to highlight priorities and initiatives of the Office of Investigations. The
following are examples of case success stories resulting from referrals received from
Department and contractor employees and managers.

   ■   An OIG investigation determined that a university inappropriately charged expenses
       to the Government. The university did not meet its cost matching requirements and
       charged unrelated administrative costs and other university project costs directly to a
       cooperative agreement held with the Department. As a result of the investigation, the
       university agreed to repay $11.5 million and forgo claims against the Department for
       another $1.7 million.
   ■   A contractor entered into a $2.6 million settlement agreement to resolve improper
       travel claims. The investigation determined that a Department prime contractor
       allowed employees to claim long-term temporary assignment per diem after they had
       relocated their personal residences to the temporary assignment location.
   ■   A private citizen residing in Austin, Texas, was sentenced to one year probation and six
       months incarceration and was ordered to pay $14,000 in restitution and $2,025 in
       fines for improper use of a Government purchase card assigned to a National
       Laboratory employee.


Goal 3:
   Support the Taxpayer

Objective 8:
   Provide the Department and the public with an effective and efficient mechanism to
   report waste, fraud, and abuse.

Strategies:
   ■   Operate the OIG Hotline in a manner that ensures at least 85 percent of Hotline
       complaints warranting further action begin processing within 7 days of receipt.



                                              14
OFFICE      OF   INSPECTOR    GENERAL                  U.S.   DEPARTMENT            OF   ENERGY
Measuring FY 2006 Performance Results




    ■   Forward at least 85 percent of the complaints identified for referral to Department or
        other agency management within 14 days of initiation of the case.

Accomplishment: Exceeded Goal.
Ninety percent of predicated Hotline complaints, which are those determined to warrant
further action, began processing within 7 days of receipt, and 99 percent of complaints
identified for referral were processed within 14 days of initiation of the case. During the
year, the OIG Hotline received 1,632 complaints/allegations; 431 of those items were
predicated; and 144 matters were referred to management, of which 67 requested a
management response.

Objective 9:
    Make the public aware of OIG reports.

Strategy:
    ■   Ensure that all OIG public reports that were identified by the OIG for inclusion on
        the Internet are posted within three working days of submission to the Secretary,
        unless otherwise specified by the Inspector General.

Accomplishment: Met Goal.
All public reports identified by the OIG for inclusion on the Internet were posted within
three working days. In addition, the OIG maintains an early alert system that provides
approved subscribers an advance notification of the release of OIG public reports.

Objective 10:
    Provide a structure for ensuring a skilled and efficient workforce.

Strategies:
    ■   Establish and maintain an OIG core training program that identifies the education,
        skills, and core competencies necessary for positions in each OIG discipline.
    ■   Develop and implement an OIG-wide training coordination process to maximize the
        use of training funds and allocate training funds on an equitable basis.
    ■   Ensure individual development plans that tie to the OIG’s training program are
        developed for all OIG employees.
    ■   Ensure that all auditors meet the training requirements as specified by generally
        accepted Government Audit Standards.
    ■   Ensure that all investigators meet the training requirements as specified by Federal law
        enforcement and other related investigative standards.




                                                15
OFFICE      OF   INSPECTOR          GENERAL              U.S.   DEPARTMENT        OF   ENERGY
                                                                    Measuring FY 2006 Performance Results




   ■   Ensure that all inspectors meet the training requirements as specified by the President’s
       Council on Integrity and Efficiency “Quality Standards for Inspections.”

Accomplishments: Met Goal.
The Office of Inspector General developed training requirements to ensure that auditors,
investigators, and inspectors receive required or otherwise appropriate training for their
specialty. These training requirements are stated in each employee’s individual development
plan. Each organization established a training coordinator position to: (1) monitor the
allocation and use of training funds; (2) ensure required training is scheduled and
completed; (3) integrate developmental and training requirements into the planning process;
and (4) ensure employees have individual development plans. Auditors, inspectors, and
investigators all met their statutory training requirements.

Objective 11:
   Provide a process to ensure that the most qualified internal and external candidates are
   referred for positions.

Strategy
   ■   Fully utilize all recruitment resources available.

Accomplishments: Met Goal.
The OIG used all necessary hiring authorities, to include the Federal Career Intern Program
and the Student Career Entry Program, to ensure an adequate and diverse pool of
candidates for jobs. The OIG uses an automated application process to provide an easy
application process for candidates.




                                                 16
OFFICE     OF   INSPECTOR      GENERAL                      U.S.   DEPARTMENT          OF   ENERGY
FY 2006 President’s
Management Agenda and
OIG-Identified Management
Challenge Activities

The President’s Management Agenda

D    uring FY 2006, the OIG made steady progress in implementing the following
     Management Agenda initiatives:

Strategic Management of Human Capital. A major human capital goal cited under the
Department’s 2006 Strategic Plan is the challenge to “ensure the DOE workforce is capable
of meeting the challenges of the 21st century by attracting, motivating, and retaining a
highly skilled and diverse workforce to do the best job.”

In the past year, the Department has continued to steadily progress in addressing this critical
human capital challenge. During 2006, the OIG was part of the implementation of a new
Department-wide performance management policy for non-supervisory employees to
provide a more consistent application of performance measurement principles across the
Department and more clearly link individual performance to organizational goals. In
addition, by the end of FY 2006, the OIG, in partnership with the Department, will
convert its automated recruitment system, QuickHire, to a more user friendly web-based
system, integrated with the Office of Personnel Management’s USAJobs website, and in
accordance with DOE’s security requirements.

During FY 2006, the OIG continued its efforts to use available recruitment and retention
tools to identify, hire, and maintain a knowledgeable, diverse, and high-performing
workforce to carry out its mission. The Federal Career Intern Program was utilized to hire
30 entry-level employees for our mission critical positions in auditing, investigations, and
inspections. Over 75 percent of these hires were minorities or women. Other examples of
recruitment tools currently used by the OIG include: (1) extensive use of career and college
fairs; (2) recruitment, relocation, and retention incentives; (3) one-time accelerated
promotions for entry-level hires; and, (4) paying for preparation courses for certified public
accountants and certified fraud examiners. To address changing work requirements and
initiatives, the OIG continued to offer early outs/buy outs in FY 2006 to eligible employees
to ensure the OIG has the mission-critical skills and qualifications in place for the future.
Additional future flexibilities being considered as funds permit include: (1) payment of costs




                                              17
OFFICE   OF   INSPECTOR      GENERAL                   U.S.   DEPARTMENT        OF   ENERGY
                         FY 2006 President’s Management Agenda and OIG-Identified Management Challenge Activities




associated with job-related credentials and licenses; (2) increased use of telecommuting; and,
(3) payment of student loans.

During FY 2007, the OIG will continue to aggressively implement and update, as necessary,
its human capital management initiatives contained in its 5-Year Strategic Plan. For
example, the OIG will continue to: (1) streamline its operations, redirect positions to the
front line, increase spans of control, and reduce the number of managers and organizational
layers; (2) make use of all available Federal recruitment flexibilities to effectively staff vacant
and critical positions with the right skill mix, including partnering with universities to
utilize student and college graduate appointing authorities; (3) refine its succession planning
efforts for leadership recruitment, including the identification, development, and succession
of potential leaders within the organization, which includes specific objectives, actions, and
timetables and an analysis of candidate pools; (4) integrate human capital management
initiatives with all planning and budget documents; (5) establish effective learning tools to
train, develop, and retain employees; and, (6) expand the use of automated human resources
systems. To ensure effective organizational alignment, the OIG will continue to assess the
size of its workforce and make decisions on deployment of staff based on changes in the
Department’s mission and current initiatives at specific sites.

Improved Financial Management. In response to requirements established by the
Government Management Reform Act of 1994, the OIG engaged an independent public
accounting firm (KPMG LLP) to audit the Department's FY 2006 consolidated balance
sheet. The contractor was engaged to audit only the balance sheet because a material
weakness in financial control and reporting resulted in a disclaimer of opinion on the FY
2005 audit of the Department's consolidated financial statements. Audit work performed
by our contract auditor identified control deficiencies in properly accounting for and
reporting undelivered orders related to the Department's FY 2006 balance sheet.

These control deficiencies were caused primarily by unresolved issues associated with the
Department's implementation of a new financial accounting system, the Standard
Accounting and Reporting System (STARS), in FY 2005. During FY 2006, the
Department's Office of Chief Financial Officer made substantial progress in correcting a
number of financial controls and reporting weaknesses associated with the new system.
However, despite these efforts, the Department's accounting controls over obligations and
reporting remained insufficient to prevent, detect or correct errors in a timely manner. In
particular, significant differences associated with the conversion of data from the legacy
accounting systems to STARS had not been resolved. Required reviews of certain
obligations and undelivered order balances had either not been performed or were not
completely effective, resulting in balances that did not agree with supporting documents,
obligations that remained unexpended for extended periods, and obligations with negative
balances. In addition, the audit disclosed Departmental weaknesses in its network and
information systems and deficiencies in the performance measure reporting process. These
weaknesses increased the risk that the Department's financial system and reported



                                                    18
OFFICE    OF   INSPECTOR       GENERAL                         U.S.     DEPARTMENT             OF   ENERGY
FY 2006 President’s Management Agenda and OIG-Identified Management Challenge Activities




performance information may not be reliable. The Department generally concurred and
initiated or agreed to initiate corrective actions.

Expanded Electronic Government. The OIG continues to partner with the Department
to implement those Federal electronic Government (e-government) initiatives that support
the Management Agenda’s e-government goal. During this past year, the OIG made
significant progress in implementing these initiatives. For example, the OIG successfully
implemented the Department’s new e-travel system called GovTrip. The OIG also
developed an Intranet website for all its employees and standardized the layout of its public
website to conform to the Department’s new website design. Additionally, the OIG is in
the process of implementing a Government-wide e-Official Personnel Folder (e-OPF)
initiative that provides desktop access to employment records via the internet. The OIG
scored “green” in all areas of the Department’s internal e-government scorecard for all
quarters of FY 2006. Those areas include cyber security, enterprise architecture, and capital
planning and investment control.

Cyber Security. The OIG submitted timely input to the Department’s FY 2006 Federal
Information Security Management Performance Metrics Report. This report forms the basis
for the Department’s annual report to the Office of Management and Budget (OMB).
We did not identify any significant problems with OIG cyber security operations. Other
accomplishments include migrating our in-house management information system to a
more secure and reliable operating platform; aggressive implementation of additional
security measures to protect sensitive and personally identifiable information (PII), including
establishing office-wide policy and procedures and installation of higher encryption on
laptops and two-factor authentication for remote access to PII; and the continued
maintenance of an accurate inventory of all OIG IT systems. Furthermore, the OIG
reported all known cyber security incidents to the Department within established due dates.

Enterprise Architecture, Capital Planning, and other E-Government Initiatives. The
Office continued to participate in the Department’s Common Operating Environment
program for all desktop, network and application hosting services. This is a major
Department initiative that combines all aspects of common IT systems and services
throughout the Department under one umbrella. The OIG also continues to assist the
Department in meeting its goals for maintaining a complete and mature enterprise
architecture. The Department’s enterprise architecture goal aims to ensure that IT is most
effectively supporting the Department’s business environment while providing a framework
that drives its IT investment decisions. Moreover, a sound enterprise architecture should
help eliminate redundant Department-wide IT systems. The OIG continued its
participation in the ongoing enterprise architecture effort and met all OMB A-11,
“Preparation, Submission, and Execution of the Budget,” IT reporting requirements.

Budget and Performance Integration. The OIG aligns budget priorities with its
overarching strategic goal and the Department’s mission priorities. The linkage to



                                                          19
OFFICE      OF   INSPECTOR          GENERAL                         U.S.     DEPARTMENT    OF   ENERGY
                        FY 2006 President’s Management Agenda and OIG-Identified Management Challenge Activities




performance ensures that the OIG meets its mandates in an effective and cost-efficient
manner. The OIG is committed to achieving this important initiative and will continue to
refine and strengthen the integration of its budget and performance goals.



OIG-Identified Management Challenges
Pursuant to the Reports Consolidation Act of 2000, the OIG annually identifies the most
significant management challenges facing the Department. This effort focuses on those
areas that are, in our judgment, the most difficult to manage as well as those with the most
significant demonstrated performance problems. These challenges are associated with
mission-related activities and also with weaknesses in the Department’s internal control
structure. The following are the OIG-identified Management Challenges for FY 2007:
   ■   Safeguards and Security
   ■   Environmental Cleanup
   ■   Stockpile Stewardship
   ■   Contract Management
   ■   Project Management
   ■   Cyber Security
   ■   Energy Supply

Safeguards and Security, Environmental Cleanup, and Stockpile Stewardship represent risks
that are inherent to the Department’s complex operations. These challenges are likely to
persist well into the future, in part, because they involve factors that are outside the
Department’s direct control. The remaining challenges represent risks related to weaknesses
in the Department’s management processes. As a whole, these challenges are not amenable
to simple, near-term resolution and can only be addressed by a concerted, persistent effort,
resulting in progress over a long period of time.




                                                  20
OFFICE    OF   INSPECTOR       GENERAL                        U.S.     DEPARTMENT             OF   ENERGY
Relationship with the
Department of Energy

T   he Department’s Strategic Plan contains five strategic themes whose results will ensure
    energy and national security, science-driven technology, and a singular Departmental focus.



Strategic Themes
Energy Security: Promoting America’s energy security through reliable, clean,
and affordable energy

   Goal 1.1 – Energy Diversity: Increase U.S. energy options and reduce dependence on
   oil, thereby reducing vulnerability to disruptions and increasing the flexibility of the
   market to meet U.S. needs.

   Goal 1.2 – Environmental Impacts of Energy: Improve the quality of the environment
   by reducing greenhouse gas emissions and environmental impacts to land, water, and air
   from energy production and use.

   Goal 1.3 – Energy Infrastructure: Create a more flexible, more reliable, and higher
   capacity U.S. energy infrastructure.

   Goal 1.4 – Energy Productivity: Cost-effectively improve the energy efficiency of the
   U.S. economy.


Nuclear Security: Ensuring America’s nuclear security

   Goal 2.1 – Nuclear Deterrent: Transform the Nation’s nuclear weapons stockpile and
   supporting infrastructure to be more responsive to the threats of the 21st Century.

   Goal 2.2 – Weapons of Mass Destruction: Prevent the acquisition of nuclear and
   radiological materials for use in weapons of mass destruction and in other acts of
   terrorism.

   Goal 2.3 – Nuclear Propulsion Plants: Provide safe, militarily-effective nuclear
   propulsion plants to the U.S. Navy.




                                              21
OFFICE   OF   INSPECTOR     GENERAL                   U.S.    DEPARTMENT        OF    ENERGY
                                                              Relationship with the Department of Energy




Scientific Discovery and Innovation: Strengthening U.S. scientific discovery,
economic competitiveness, and improving quality of life through innovations
in science and technology

   Goal 3.1 - Scientific Breakthroughs: Achieve the major scientific discoveries that will
   drive U.S. competitiveness; inspire America; and revolutionize our approaches to the
   Nation’s energy, national security, and environmental quality challenges.

   Goal 3.2 - Foundations of Science: Deliver the scientific facilities, train the next
   generation of scientists and engineers, and provide the laboratory capabilities and
   infrastructure required for U.S. scientific primacy.

   Goal 3.3 - Research Integration: Integrate basic and applied research to accelerate
   innovation and to create transformational solutions for U.S. energy needs.


Environmental Responsibility: Protecting the environment by
providing a responsible resolution to the environmental legacy of nuclear
weapons production

   Goal 4.1 – Environmental Cleanup: Complete cleanup of the contaminated nuclear
   weapons manufacturing and testing sites across the United States.

   Goal 4.2 – Managing the Legacy: Manage the Department’s post-closure environmental
   responsibilities and ensure the future protection of human health and the environment.


Management Excellence: Enabling the mission through sound management

   Goal 5.1 – Integrated Management: Institute an integrated business management
   approach throughout DOE with clear roles and responsibilities and accountability, to
   include effective line management oversight by both Federal and contractor
   organizations.

   Goal 5.2 – Human Capital: Ensure that the Department’s workforce is capable of
   meeting the challenges of the 21st Century by attracting, motivating, and retaining a
   highly skilled and diverse workforce to do the best job.

   Goal 5.3 - Infrastructure: Build, modernize and maintain facilities and infrastructure to
   achieve mission goals and ensure a safe and secure workplace.




                                             22
OFFICE   OF   INSPECTOR     GENERAL                   U.S.   DEPARTMENT              OF    ENERGY
Relationship with the Department of Energy




     Goal 5.4 – Resources: Institutionalize a fully integrated resource management strategy
     that supports mission needs and postures the Department for continuous business
     process improvement.
Secretary Bodman stated the following in explaining the Department’s FY 2007 Budget
Request before the Senate Committee on Energy and Natural Resources:
     “Over the last five years America has faced and overcome many challenges. From the
     U.S./Canada Power Blackout of August 2003, to the devastation caused by hurricanes
     Katrina and Rita, now more than ever, American families understand the key
     relationship between our Nation’s energy security and America’s economic security.”
Secretary Bodman then listed three notable items in the budget:
     ■   Strategic Investments to Reduce America’s Dependence on Foreign Oil and Develop
         Clean Energy Technologies
     ■   Strategic Investments to Enable Nuclear Energy Expansion in a Cleaner, Safer Manner
     ■   Strengthening America’s National Security Commitments
The OIG directly supports the strategic themes and priorities of the Department. The OIG
identifies opportunities for cost savings and operational efficiencies; identifies programs that
are not meeting performance expectations; returns hard dollars to the Department and the
U.S. Treasury as a result of civil and criminal prosecutions; and identifies ways to make
departmental programs safer and more secure. Further, the OIG helps assure the
Department that those attempting to defraud the Government are apprehended and
brought to justice.


OIG Strategic Goal
The OIG’s strategic goal is to operate a robust review program and provide timely
performance information and recommendations to facilitate the Department’s efforts to: (1)
implement the President’s Management Agenda; (2) resolve management challenges; (3)
execute the Secretary’s priorities; and, (4) ensure the integrity of the Federal and contractor
workforce, while ensuring that the OIG completes statutory mandates, recovers monies, and
provides opportunities for savings.




                                               23
OFFICE      OF    INSPECTOR          GENERAL           U.S.    DEPARTMENT        OF   ENERGY
THIS PAGE INTENTIONALLY LEFT BLANK
FY 2007 Funding Priorities


OIG Funding by Strategic Goal
The OIG focuses its resources toward the most significant mission-related priorities and
challenges facing the Department. The OIG’s overarching strategic goal supports the
Department’s mission priorities and the President’s Management Agenda.


Strategic Goal                                   FY 2006           FY 2007       FY 2007
                                               Appropriated       Requested   Pre-conference

The OIG’s Strategic                              $41.5             $45.5         $45.5
Goal is to operate a robust review               million           million       million
program and provide timely
performance information and
recommendations to facilitate
the Department’s efforts to:
(1) implement the President’s
Management Agenda;
(2) resolve management challenges;
(3) execute the Secretary’s priorities; and,
(4) ensure the integrity of the
Federal and contractor workforce,
while ensuring that the OIG
completes statutory mandates,
recovers monies, and provides
opportunities for savings.



The OIG’s current FY 2007 budget appropriation request is $45.5 million. This funding
will help to ensure that the OIG continues to successfully conduct independent audits,
investigations, inspections, and other reviews of the Department’s programs.




                                                  25
OFFICE     OF   INSPECTOR       GENERAL                    U.S.   DEPARTMENT    OF   ENERGY
                                                                          FY 2007 Funding Priorities




Mission Priorities   Outcomes

National Security    ■ Promote the safety and reliability of the nuclear stockpile.
                     ■ Promote security and safety within Department programs.


                     ■ Assess the Department’s cyber security programs to protect the

                       integrity, reliability, availability, and confidentiality of important
                       information.
                     ■ Assess the Department’s progress in addressing and resolving the

                       threat from weapons of mass destruction.
                     ■ Promote effective intelligence and counterintelligence programs.




Energy/Science       ■ Contribute to the protection of the critical energy infrastructure.
                     ■ Promote the implementation of the President’s National Energy

                       Plan.
                     ■ Assist in directing research and development that directly relate to

                       and support the missions of the Department and aid in ensuring
                       greater application of mature technologies.
                     ■ Promote the advancement of energy, science and technology to

                       achieve energy solutions.

Environmental        ■ Promote implementing environmental cleanup faster and cheaper.
Management           ■ Contribute to the success of the Department’s licensing and

                       construction of a permanent repository for nuclear waste at Yucca
                       Mountain and the acceptance of waste by 2010.
                     ■ Assess the Department’s management of uranium enrichment and

                       civilian nuclear power development.

Corporate            ■ Contribute to the effectiveness of the Department’s financial
Management             management (audit of the Department’s financial statements).
                     ■ Assure the American public that the Department is fiscally

                       responsible in carrying out its mission.
                     ■ Promote effective contract management.

                     ■ Contribute to the Department’s efficient and economic

                       management of real property assets.
                     ■ Foster responsiveness to complaints and allegations from

                       Department and OIG customers.
                     ■ Ensure the Department has metrics in place and uses them to

                       manage its programs and activities effectively.
                     ■   Promote worker and community safety.




                                            26
OFFICE   OF   INSPECTOR     GENERAL                   U.S.   DEPARTMENT          OF    ENERGY
FY 2007 Funding Priorities




Critical Outside Influences
Each year, the OIG is requested to conduct quick turnaround, unplanned, and resource-
intensive reviews. These requirements directly impact the OIG’s workloads, formulating
budgets, evaluating procedures, and establishing priorities. Examples include:

Secretarial/Congressional Priorities. Emerging mission-related priorities require the
Secretary to request the OIG to conduct related reviews. Also, the OIG regularly receives
requests from various members of Congress and their staffs to provide information and to
participate in briefings and hearings. These requests are usually unanticipated and require
immediate attention. Satisfying these requests often affects the OIG’s progress in achieving
its strategic planning goals.

New Statutory Requirements. New legislative mandates and unfunded audit, investigative,
inspection, or special inquiry requirements divert resources away from other critical areas,
including evaluating the performance of the Department’s programs and operations as they
relate to the Management Agenda, the Secretary’s mission priorities, and the most serious
management challenges facing the Department.

OMB Circular No. A-123, Management Accountability and Control. OMB has not
finalized the circular; therefore, the requirement to audit implementation may change. The
cost of auditing the Department’s FY 2007 Financial Statement increases by $431,000 in
FY07 and will increase by more than $2 million when the requirement to audit
Management Accountability and Controls begins in FY 2009.




                                             27
OFFICE      OF   INSPECTOR   GENERAL                  U.S.   DEPARTMENT        OF   ENERGY
THIS PAGE INTENTIONALLY LEFT BLANK
FY 2007 Annual
Performance Plan

O      ur work is important to the Department’s success in fulfilling its mission-related goals.
       The OIG must ensure that its resources and activities cover issues and concerns most
critical to the Department. This Performance Plan identifies the FY 2007 goals, objectives,
and measures that will help the OIG to better plan its priorities and continue to assist the
Department in identifying and taking corrective action to improve areas most vulnerable to
waste, fraud, and mismanagement. This Performance Plan also describes the specific
projects and activities the OIG plans to undertake during FY 2007. These projects and
activities will include an increased focus on national/homeland security, information
technology security, environmental cleanup, procurement, and contract management. In FY
2007, OIG audits, inspections, and special inquiries will continue to identify opportunities
for cost savings and operational efficiencies, and OIG investigations will continue to return
hard dollars to the Department and the U.S. Treasury.



FY 2007 Performance Measures
For FY 2007, the OIG will measure its accomplishments against the following
performance measures:

Goal 1:
    Promote the President’s Management Agenda and the Mission Priorities of the Secretary
    and Congress

Objective 1:
    Conduct reviews seeking positive change in the Department relating to the
    implementation of the initiatives in the President’s Management Agenda, the Secretary’s
    Priorities, and the OIG-identified Management Challenges.

Performance Measures:
    ■   Conduct reviews as outlined in the OIG annual plan relating to: (1) the President’s
        Management Agenda initiatives; (2) the Secretary’s Mission Priorities; and, (3) the
        OIG-identified Management Challenges. Specifically:
          ●   Complete reviews that address each Presidential, Secretarial, and OIG-identified
              initiative, priority, and/or challenge as identified in FY 2005, to be completed
              by FY 2011.
          ●   Initiate a review within one year of any new Department initiatives and priorities.


                                                  29
OFFICE        OF   INSPECTOR     GENERAL                  U.S.   DEPARTMENT        OF   ENERGY
                                                                      FY 2007 Annual Performance Plan




GOAL 2:
   Improve economy and efficiency and reduce waste, fraud, and abuse within
   the Department

Objective 2:
   Concentrate OIG efforts on issues that have the greatest impact and usefulness to
   the Department.

Performance Measures:
   ■   Ensure that every performance review includes an analysis of program
       accomplishments and the use of metrics to measure results.
   ■   Ensure that at least 55 percent of all performance audits include recommendations
       leading to demonstrable cost savings, program efficiencies, and/or funds put to
       better use.
   ■   Complete at least five follow-up reviews annually to determine the status and efficacy
       of corrective actions.
   ■   Complete an annual risk-based programmatic assessment that considers OIG
       institutional knowledge; past program performance; funding levels; Presidential,
       Secretarial, and congressional concerns; and input from Department
       program managers.
   ■   Ensure that each year at least 80 percent of all planned performance audits address
       high-risk areas as identified in the OIG annual risk-based programmatic assessments.
   ■   Strive for the Department to accept at least 77 percent of OIG report
       recommendations.

Objective 3:
   Provide timely information to the Department so that prompt action can be taken to
   improve program performance.

Performance Measures:
   ■   Issue at least 80 percent of audit reports no later that 60 days following receipt of
       management comments.
   ■   Complete the field work for at least 75 percent of special inquiries within
       60 work days.
   ■   Ensure that the average time to issue Investigative Reports to Management is 60 days
       or less following final resolution of criminal and civil investigations.
   ■   Complete the field work for at least 80 percent of inspections within 90 work days.



                                               30
OFFICE     OF   INSPECTOR     GENERAL                    U.S.   DEPARTMENT          OF   ENERGY
FY 2007 Annual Performance Plan




Objective 4:
    Strengthen financial management and cyber security through completion of
    mandatory reviews in accordance with Office of Management and Budget and other
    applicable requirements.

Performance Measures:
    ■   Complete annually, by the established due date, the Department’s consolidated
        financial statement audits to determine whether the financial statements are free from
        material misstatement.
    ■   Review the Department’s classified and unclassified information security system
        programs in conjunction with the financial statement audit by the statutory due date.
    ■   Initiate at least 10 “Statement of Costs Incurred and Claimed” audits annually to
        assess internal controls over costs claimed by the Department’s major contractors.

Objective 5:
    Concentrate investigative efforts on allegations of criminal and civil violations of law
    that adversely impact major Department programs and operations, with emphasis on
    maximizing the recovery of public resources and deterring future wrongdoing.

Performance Measures:
    ■   Achieve an annual acceptance rate of at least 70 percent for cases presented for
        prosecutorial consideration.
    ■   Ensure that at least 75 percent of all cases opened focus on key areas of Department
        vulnerability, specifically procurement and grant fraud, environmental violations, Qui
        Tams, or computer crimes.

Objective 6:
    Coordinate with other law enforcement agencies to establish effective networks in order
    to identify areas that are most vulnerable to waste, fraud, and abuse.

Performance Measure:
    ■   Ensure at least 25 percent of all cases opened are joint agency/task force investigations
        with external law enforcement agencies, such as the Federal Bureau of Investigation
        and other OIGs.




                                                 31
OFFICE      OF   INSPECTOR        GENERAL                U.S.    DEPARTMENT        OF   ENERGY
                                                                    FY 2007 Annual Performance Plan




Objective 7:
   Heighten awareness of potential fraud among internal and external customers.

Performance Measure:
   ■   Provide at least 20 fraud awareness briefings annually to Department and contractor
       employees and managers.


Goal 3:
   Support the Taxpayer

Objective 8:
   Provide the Department and the public with an effective and efficient mechanism to
   report waste, fraud, and abuse.

Performance Measures:
   ■   Operate the OIG Hotline in a manner that ensures at least 85 percent of Hotline
       complaints warranting further action begin processing within 7 days of receipt.
   ■   Forward at least 85 percent of the complaints identified for referral to Department or
       other agency management within 14 days of initiation of the case.

Objective 9:
   Make the public aware of OIG reports.

Performance Measure:
   ■   Ensure that all OIG public reports that were identified for inclusion on the Internet
       are posted within three working days of submission to the Secretary, unless otherwise
       specified by the Inspector General.

Objective 10:
   Provide a structure for ensuring a skilled and efficient workforce.

Performance Measures:
   ■   Establish and maintain an OIG core training program that identifies the education,
       skills, and core competencies necessary for positions in each OIG discipline.
   ■   Develop and implement an OIG-wide training coordination process to maximize the
       use of training funds and allocate training funds on an equitable basis.
   ■   Ensure individual development plans that tie to the OIG’s training program are
       developed for all OIG employees.


                                              32
OFFICE    OF   INSPECTOR     GENERAL                   U.S.   DEPARTMENT          OF   ENERGY
FY 2007 Annual Performance Plan




    ■   Ensure that all auditors meet the training requirements as specified by generally
        accepted Government Auditing Standards.
    ■   Ensure that all investigators meet the training requirements as specified by Federal law
        enforcement and other related investigative standards.
    ■   Ensure that all inspectors meet the training requirements as specified by the President’s
        Council on Integrity and Efficiency “Quality Standards for Inspections.”

Objective 11:
    Provide a process to ensure that the most qualified internal and external candidates are
    referred for positions.

Performance Measures:
    ■   Ensure a diverse, skilled talent pool for selection of new hires through the use of
        appropriate recruitment resources.



Mission Priorities
The OIG will focus its resources and planned activities toward the following priorities
supporting the Department’s Strategic Themes:



National Security
One of the primary responsibilities of the
Department is to enhance national security
through the application of nuclear
technology. The Department oversees the
maintenance of the U.S. nuclear weapons
stockpile; the development of responsive
infrastructure that can adapt quickly to
stockpile changes while drawing down the
stockpile of weapons excess to defense
needs; the security of the nuclear complex
and strengthening of international nuclear
nonproliferation controls; the reduction in
global danger from weapons of mass
destruction; the provision to the U.S. Navy
of safe, effective nuclear propulsion
systems; and operation of its
national laboratories.                            Portable reader being developed to detect airborne pathogens.



                                                33
OFFICE      OF   INSPECTOR        GENERAL                   U.S.      DEPARTMENT               OF    ENERGY
                                                                          FY 2007 Annual Performance Plan




In coordination with the Department of Defense and other agencies, the Department helps
to ensure that we live in a safe and secure world. The 21st century presents the prospect of a
national security environment in which threats may evolve more quickly, be more variable in
nature, and be less predictable than in the past. In our current threat environment, nuclear
weapons will continue to play a critical role in the overall U.S. security posture. Annually,
NNSA certifies the readiness of the strategically deployed nuclear weapons. The
Department has adopted a science-based Stockpile Stewardship Program that focuses on the
development and application of improved technical capabilities to assess the safety, security,
and reliability of existing nuclear warheads without the use of nuclear testing. Drawing
from its world class scientific and technical expertise, the Department leverages existing
nonproliferation programs to identify and prioritize vulnerable materials, remove or secure
such materials, convert research and test reactors from highly enriched uranium to low
enriched uranium, and take any other necessary steps to meet changing threats.



Environmental Management
The Department’s environmental mission has become more important since the end of the
Cold War. Over 50 years of nuclear defense work and energy research resulted in large
volumes of solid and liquid radioactive waste along with significant areas of contaminated
soil and water. The Department is committed to safely cleaning up the contamination from
these operations and disposing of the waste in a manner that protects the environment, the
workers, and the public. The cleanup program is focused on reducing risk, cleaning up
more efficiently and cost effectively, and working collaboratively with regulators and
stakeholders in developing strategies for site closure.

                                                       Following site closure, the Office of Legacy
                                                       Management is responsible for ensuring the
                                                       protection of human health and the
                                                       environment through long-term
                                                       stewardship of facilities, structures, land
                                                       and records, as well as the oversight of the
                                                       Department’s post-closure responsibilities
                                                       for former contractor employees.

                                                           At the Department, the Office of Civilian
                                                           Radioactive Waste Management is
                                                           responsible for managing and disposing of
                                                           commercial and defense spent nuclear fuel
                                                           and other highly radioactive wastes that are
Submersible detection for monitoring special environments.
                                                           stored in temporary facilities at over 125
sites in 39 states. The ultimate consolidation and disposal of nuclear waste at Yucca
Mountain for high-level radioactive waste and spent nuclear fuel will support national and


                                                  34
OFFICE    OF   INSPECTOR        GENERAL                     U.S.    DEPARTMENT          OF   ENERGY
FY 2007 Annual Performance Plan




energy security, reduce the number of locations where nuclear materials are stored, and
maintain the viability of the Navy’s nuclear powered fleet by providing a disposal path for
the Navy’s spent nuclear fuel.



Energy/Science
The demand for energy in the U.S. is rising faster than the projected increase in domestic
energy production. The projected shortfall between domestic energy demand and domestic
supply is projected to increase nearly 50 percent by 2020. To make up for the projected
shortfall, various options – import more energy, improve energy conservation and efficiency,
and/or increase domestic supply – were considered. In the development of the National
Energy Policy (NEP), it was concluded that increased dependence on oil imports would
jeopardize U.S. national and economic security. For this reason, the Department is taking
steps to improve energy conservation and efficiency and increase domestic energy
production in order to avoid increased dependence on imports.

Consistent with the priorities in the NEP, in August 2005, the President signed the Energy
Policy Act into law. This law encourages energy efficiency and conservation; promotes
alternative and renewable energy sources; reduces U.S. dependence on foreign sources of
energy; increases domestic production; modernizes the electricity grid; and encourages the
expansion of nuclear energy. Science and technology are the Department’s principal tools
for achieving the goals for the NEP and the
Energy Policy Act. The Department
invests in high-risk, high-value energy
research and development that the private
sector alone would not or could not
develop in a market driven economy.
These technologies will allow renewable
energy to play a more important role in the
future of our Nation.

A very important component of the
Department’s science activities is its
operation and management of 10 national The Star Detector at Brookhaven’s Relativistic Heavy Ion Collider.
laboratories and 27 major scientific user
facilities. Its goals are to deliver the basic scientific research and knowledge for the
Department’s applied technology programs through strategic investments that advance
discoveries in biology, chemistry, plasma science, materials sciences, plant sciences,
computation, and environmental studies and to provide world-class research facilities and
scientific human capital to the Nation’s overall science enterprise.




                                                   35
OFFICE     OF   INSPECTOR         GENERAL                    U.S.    DEPARTMENT          OF   ENERGY
                                                                    FY 2007 Annual Performance Plan




Corporate Management
The Department manages a diverse portfolio of program missions, facilities, and contractor
resources over a nationwide complex that includes Headquarters organizations, operations
offices, field/site offices, national laboratories, power marketing administrations, and sites
dedicated to environmental cleanup. The offices that support the corporate management
framework are responsible for supporting the Secretary’s initiatives to improve management
and accountability while ensuring the safety, security, and health of the workforce
and public.

Some of the challenges the Department faces include:
   ■   Financial Management
   ■   Project Management
   ■   Oversight of Contractors
   ■   Performance Management
   ■   Information Technology Management
   ■   Worker and Community Safety




                                              36
OFFICE    OF   INSPECTOR     GENERAL                   U.S.   DEPARTMENT          OF   ENERGY
Office of Audit Services



T     he Office of Audit Services (OAS) provides internal and contracted audit activities for
      Department programs and operations, including NNSA. The Office strives to provide
reliable, credible financial and performance information to senior management, the
Congress, and the taxpayers. The Office is organizationally aligned with the Department’s
programmatic lines in national security; energy, science and environmental quality; and,
financial, technology, and corporate. This organizational structure helps to ensure that audit
work provides comprehensive coverage over Department organizations, programs, and
operations, while meeting the Department’s evolving needs.

The Office uses a risk-based process for identifying areas for audit coverage. Specific areas
with the greatest vulnerability and those with significant dollar amounts are identified. This
process leads to conducting program performance reviews that focus on the most serious
management challenges facing the Department, the President's Management Agenda and
the Secretary’s priorities. A significant portion of audit resources is directed toward meeting
OIG statutory audit responsibilities. In the past, these responsibilities were mostly financial
in nature and crosscut all of the challenge areas, the President’s key management initiatives
and the Secretary's priorities. OIG statutory audit responsibilities continue to increase with
the addition of financial and information technology security responsibilities.

The OAS has scheduled 88 performance audits to start in FY 2007. Many non-
discretionary taskings from external sources impact on OAS workload demands, and it is
sometimes necessary to delay, postpone, or cancel planned audits to accommodate these
demands. Following is a summary of audits scheduled to begin in FY 2007, grouped by the
Department’s Business Lines. The planned audit workload is summarized later in this plan.



National Security
To protect our national security by applying advanced science and nuclear technology to the
Nation’s defense, the following audits will determine whether:
   ■   Nonconforming parts have been placed into the nuclear weapon stockpile (A07AL001)
   ■   The National Training Center has the necessary capabilities to support changes in
       protective force training and weaponry (A07AL002)
   ■   Vendor supplied parts meet the Department’s established standards (A07AL003)
   ■   Sandia’s Test Capability Revitalization Program meets programmatic, cost, scope and
       schedule goals (A07AL004)


                                              37
OFFICE     OF   INSPECTOR    GENERAL                   U.S.   DEPARTMENT        OF   ENERGY
                                                                              Office of Audit Services




  ■   Sandia National Laboratories has an effective method of accounting for all weapons
      on-site (A07AL005)
  ■   The Department’s consolidation plan covering special nuclear materials at NNSA sites
      is feasible and cost effective (A07LV017)
  ■   The Department’s Nuclear Weapons Incident Response program has sufficient
      resources to meet its goals and objectives (A07LV018)
  ■   NNSA’s plutonium experiment programs are meeting their expected scope and
      schedules (A07LL013)
  ■   The Dual Axis Radiographic Hydrodynamic Test II Axis Recovery and
      Commissioning Project has successfully re-designed and refurbished the accelerator
      and injector cells to correct the high-voltage breakdown problems (A07LA008)
  ■   The Satellite Base Nuclear Detonation project is meeting its goals and objectives
      (A07LA010)
  ■   Y-12’s proposed lithium disposition plan is the most beneficial alternative for the
      Department (A07YT024)
  ■   Bonneville and Western Area Power Administrations have performed key steps to
      ensure emergency preparedness (A07DN010)
  ■   The Department has accurately accounted for and controlled all U.S. origin highly
      enriched uranium provided to foreign countries (A07SR035)
  ■   There is a mission need for the proposed Plutonium Vitrification Project at the
      Savannah River Site (A07SR036)
  ■   The Department adequately and effectively implemented access controls to its facilities
      and information in accordance with Homeland Security Presidential Directive-12
      (A07GT008)
  ■   FERC has an effective safety and security inspection program for liquefied natural gas
      (A07GT011)
  ■   The Department is adequately controlling, protecting and accounting for Nuclear
      Explosive-Like Assemblies (A07PT021)
  ■   The Department has accurately accounted for all domestic loaned nuclear materials
      and promptly recovered unneeded materials from licensees (A07PT022)
  ■   Sandia National Laboratories has corrected identified problems in its management of
      high explosives (A07PT024)




                                              38
OFFICE    OF   INSPECTOR     GENERAL                   U.S.   DEPARTMENT         OF     ENERGY
Office of Audit Services




Environmental Management
To protect the environment by providing a responsible resolution to the environmental
legacy of the Cold War and by providing for the permanent disposal of the Nation’s high-
level radioactive waste, the following audits will determine whether:

     ■   The Office of Civilian Radioactive Waste Management’s plans for developing and
         deciding on a canister model are feasible and cost effective (A07LV019)
     ■   Los Alamos and the Department are meeting the Consent Order interim milestones
         (A07LA007)
     ■   The Department is on track to clean and remediate the Moab, Utah, former uranium-
         ore processing site (A07DN008)
     ■   The Department is performing decontamination and decommissioning activities in a
         manner to reduce health, safety, and environmental risks (A0ET011)
     ■   The Department is pursuing alternative uses for the depleted uranium hexafluoride
         oxide (A07ET012)
     ■   The Office of Environmental Management is reusing and recycling potentially
         contaminated scrap metal (A07ET013)
     ■   Operating both the Central Characterization Capability and the mobile
         characterization units is cost effective for the Transuranic Waste Program (A07ID014)
     ■   The Department is achieving its goals for disposal of contact handled transuranic
         waste (A07ID017)
     ■   The Department’s plans for its surplus un-irradiated nuclear fuel are consistent with
         current national energy policy (A07ID018)
     ■   The Department is meeting the goals of the Plant Life Extension Program for the
         Advanced Test Reactor at the Idaho National Laboratory (A07ID019)
     ■   The Brookhaven Environmental Management Completion Program is meeting
         milestones and cost goals for environmental cleanup (A07PR026)
     ■   Waste disposed of at the Environmental Restoration Disposal Facility at the Hanford
         Site meets the waste acceptance criteria (A07RL030)
     ■   The Department’s Hanford Environmental Information System is providing reliable
         information for cleanup decisions (A07RL031)
     ■   The Department will have the capability to process solid waste to meet schedule
         requirements (A07RL032)
     ■   The Integrated Disposal Facility at the Hanford Site is necessary (A07RL033)



                                                 39
OFFICE       OF     INSPECTOR   GENERAL                  U.S.   DEPARTMENT        OF   ENERGY
                                                                                Office of Audit Services




   ■   The Department is processing transuranic waste in the most economical and efficient
       manner (A07SR037)



Energy/Science
To contribute to the protection of the U.S.’s national and economic security by (1)
promoting a diverse supply and delivery of reliable, affordable, and environmentally sound
energy and, (2) providing world-class scientific research capacity and advancing scientific
knowledge, the following audits will determine whether:

   ■   The Department’s user facilities are being fully utilized and proprietary usage costs are
       being covered (A07CH001)
   ■   The Department is meeting its commitments and deadlines for U.S. participation in
       the International Thermonuclear Experimental Reactor project (A07OR003)
   ■   The Office of Science will achieve the goals contained within its facilities plan
       (A07CH004)
   ■   Vehicle Technologies projects are meeting programmatic goals (A07DN007)
   ■   The Department is effectively implementing the Energy Policy Act of 2005
       (A07OR021)
   ■   The High Flux Isotope Reactor at the Oak Ridge National Laboratory is achieving its
       operational goals (A07OR022)
   ■   The Department has implemented lessons learned from Hurricanes Katrina and Rita
       at the Strategic Petroleum Reserve (A07OR023)
   ■   The Spallation Neutron Source project met performance and cost expectations when it
       was designed as an operating facility (A07OR024)
   ■   The Climate Change Research Program funds are being used to accomplish
       quantifiable goals (A07PR025)
   ■   Weatherization Assistance grant funds were used for intended purpose and the
       Program is meeting its goals (A07PR028)
   ■   FERC appropriately identifies and investigates potential energy market abuses in a
       timely manner (A07GT015)
   ■   The Department has effective programs and plans in place to ensure the efficient use
       of energy and water (A07PT019)




                                               40
OFFICE     OF   INSPECTOR     GENERAL                    U.S.   DEPARTMENT         OF     ENERGY
Office of Audit Services




Corporate Management
To contribute to the effectiveness of the Department’s financial management, the following
audits will be performed:

     ■   Audit of the Department's Consolidated Financial Statements as of and for the year
         ended September 30, 2006. (A07FN001)
     ■   Audit of the FERC's Financial Statements as of and for the year ended September 30,
         2006. (A07FN002)
     ■   Audit of the Isotope Production Distribution Financial Statements as of and for the
         year ended September 30, 2006. (A07FN003)
     ■   Audit of the Decommissioning and Decontamination Financial Statements as of and
         for the year ended September 30, 2006. (A07FN004)

To assure the American public that the Department is fiscally responsible in carrying out its
mission; promote effective contract management; ensure the Department has metrics in
place and uses them to manage its programs and activities effectively; and, promote the
safety and health of the Department's workforce, the following audits will determine
whether:

     ■   The Office of Civilian Radioactive Waste Management’s Quality Assurance function
         possesses the appropriate staff skill sets required to oversee the Quality Assurance
         program at Yucca Mountain (A07LV020)
     ■   The Office of Civilian Radioactive Waste Management has ensured that newly enacted
         health and safety rules have been implemented; managers and workers have received
         training; controls have been established to monitor effectiveness; and incidents have
         been reported and addressed satisfactorily (A07LV021)
     ■   Lawrence Livermore National Laboratory is decontaminating, decommissioning, and
         disposing of excess facilities in a manner that minimizes the risk to the employees and
         surrounding communities (A07LL011)
     ■   Safety recommendations are adequately resolved and closed out at the Lawrence
         Livermore National Laboratory (A07LL012)
     ■   The Y-12 National Security Complex has identified Complex functions that could be
         subcontracted to small business concerns (A07LL014)
     ■   The Department and NNSA are ensuring that their management and operating
         contractors are expanding subcontracting opportunities with small businesses to the
         maximum extent possible (A07LL015)




                                                 41
OFFICE       OF     INSPECTOR   GENERAL                  U.S.   DEPARTMENT        OF   ENERGY
                                                                              Office of Audit Services




  ■   Contract transition and closeout plans and activities at the Lawrence Livermore
      National Laboratory are adequate and whether costs incurred for contract transition
      and closeout charged to the Department contract are allowable, allocable, and
      reasonable (A07LL016)
  ■   The funding for the Cerro Grande Project was expended in accordance with the
      direction from Congress (A07LA006)
  ■   Los Alamos National Laboratory has established an effective internal oversight process
      (A07LA009)
  ■   The Department effectively controls the level of effort, cost, and product of wage rate
      workers at the Y-12 National Security Complex (A07YT022)
  ■   Federal courier agents received the training and firearms instruction to possess the
      required proficiency level (A07YT023)
  ■   NNSA maintains sufficient Federal human capital to fulfill its mission (A07YT025)
  ■   NNSA maintains sufficient contractor human capital to fulfill its mission (A07YT026)
  ■   The Argonne National Laboratory has identified functions that could be
      subcontracted to small business concerns (A07CH002)
  ■   Bonneville Fish and Wildlife projects are being conducted in the most efficient and
      effective manner (A07DN005)
  ■   Bonneville Power Administration can account for its personal property items
      (A07DN006)
  ■   Power Marketing Administration spectrum relocation projects are being conducted in
      a timely and cost-effective manner (A07DN009)
  ■   The pricing of scope of work changes to the Idaho Cleanup Project is reasonable
      (A07ID015)
  ■   The Department is efficiently utilizing facilities at the Idaho National Laboratory
      (A07ID016)
  ■   The Department’s contractors at the Idaho National Laboratory are following worker
      safety requirements (A07ID020)
  ■   Planned construction projects at the Pacific Northwest National Laboratory meet
      mission needs (A07RL029)
  ■   The Department is properly managing procurements of material for the construction
      of the Waste Treatment Plant (A07RL034)
  ■   The Department has an efficient and effective aviation management program
      (A07GT009)




                                              42
OFFICE    OF   INSPECTOR     GENERAL                   U.S.   DEPARTMENT         OF     ENERGY
Office of Audit Services




     ■   The Department’s program offices, field organization and facility contractors are
         properly implementing Federal policies and informal requirements (A07PT012)
     ■   The Department is adequately managing its directed funds (A07GT013)
     ■   Department facilities have effective safety management programs (A07GT014)
     ■   The Department is effectively managing its inventory of precious metals (A07PT016)
     ■   The Department and its contractors are properly managing protective force equipment
         (A07PT017)
     ■   The Department and its contractors have developed an effective Electrical Safety
         Management Program (A07PT018)
     ■   The Department and its contractors are implementing and effectively managing an
         industrial hygiene program (A07PT020)
     ■   The Department utilizes the most effective and efficient methods to obtain security
         services at its Departmental elements (A07PT023)
     ■   The Department was efficiently developing the eContent Management System to meet
         mission needs (A07TG025)
     ■   The Department has effectively applied the use of Earned Value Management to
         information technology projects (A07TG026)
     ■   The Integrated Planning, Accountability, and Budgeting System is meeting
         Department goals and user information needs (A07TG027)
     ■   The Department has adequately secured its information systems from unauthorized
         remote access (A07TG028)
     ■   The Department’s E-Procurement initiative is satisfying Federal and Department
         system development requirements, goals and mission needs (A07TG029)
     ■   The Department has implemented adequate guidance and security controls over the
         deployment and use of portable handheld devices (A07TG030)
     ■   The E-Department of Energy Integrated Security System is being implemented in a
         cost effective and timely manner that will enable the Department to meet Federal
         requirements while keeping data secure (A07TG031)
     ■   The Department was adequately controlling access to unclassified information systems
         by foreign nationals (A07TG032)
     ■   The Department is effectively transitioning to Internet Protocol Version 6
         (A07TG033)
     ■   The Department has effectively managed its telecommunications infrastructure
         (A07TG034)




                                                43
OFFICE       OF     INSPECTOR   GENERAL                  U.S.   DEPARTMENT        OF   ENERGY
THIS PAGE INTENTIONALLY LEFT BLANK
Office of Investigations



T     he Office of Investigations (OI) conducts investigations into alleged violations of law
      that impact Department programs, operations, facilities, and personnel. Priority is
given to investigations of suspected violations of criminal and civil statutes, as well as serious
administrative misconduct. Criminal Investigators within OI work closely with Department
of Justice (DOJ) prosecutors and other Federal, State and local law enforcement
organizations utilizing a full range of law enforcement authorities, such as carrying firearms,
applying for and executing search warrants, and making arrests. The work of OI, however,
extends beyond the conduct of investigations – namely, the office identifies opportunities
for improving the economy and efficiency of Department programs and operations by
issuing reports that recommend positive change. OI’s accomplishments are measured by
cases accepted by management, cooperative efforts with other law enforcement agencies, and
proactive initiatives. Through accomplishments in those areas, the office plays a major role
assisting the OIG in promoting the efficient, effective, and economical operation of the
Department, including NNSA.

The statutory law enforcement authority granted as a provision of the Homeland Security
Act of 2002 includes a requirement for periodic peer review of the office’s investigative
functions. During FY 2005, the office experienced its first peer review, which resulted in a
full compliance evaluation. During FY 2006, OI conducted its first peer review of another
investigative organization. The results of the review concluded that the organization was in
full compliance with applicable President’s Council on Integrity and Efficiency (PCIE)
quality standards. The next PCIE Peer Review of OI is scheduled for the first quarter in
FY 2008.



National Program Area Initiative
The work performed by OI is primarily reactive in nature and has the potential of reaching
into any Department major program area, including NNSA. The establishment of the
National Program Area Initiative has afforded OI the opportunity to identify program areas
in the Department most vulnerable to fraud, waste, and abuse and to proactively dedicate a
significant portion of investigative resources, to include special agent training, liaison
development, and specialized studies, to those program areas. OI’s National Program Area
Initiative concentrates on four areas, which are also tied into the Department’s strategic
themes as identified in the 2006 Strategic Plan. The four areas are: (1) contract and grant
fraud; (2) environment, safety, and health (ES&H) violations; (3) Qui Tams; and (4)
technology crimes. One of OI’s goals is to have 75 percent of its open investigations address



                                               45
OFFICE    OF   INSPECTOR      GENERAL                   U.S.    DEPARTMENT         OF   ENERGY
                                                                            Office of Investigations




at least one of the four areas. In FY 2007, work on the National Program Area Initiative
will continue to move forward as plans are implemented and expanded.


Contract and Grant Fraud
During FY 2006, OI continued to identify and interact with key Department and NNSA
procurement personnel, as well as conduct fraud awareness briefings with special emphasis
on procurement and grant fraud. A majority of the Department’s budget is expended on
contracts and grants; therefore, the opportunity for fraud to occur or exist within various
Department programs is significant. During this reporting period, one major success in this
area involved a Department contractor who entered into a $41.9 million civil settlement
with the U.S. Government for submitting false claims. Given the continuing potential for
significant fraud, in FY 2007, OI will continue to: (1) expand fraud awareness briefings
throughout DOE, including NNSA; (2) prioritize contract and grant fraud investigations,
placing emphasis on cases with a potential high dollar recovery to the Department; (3) work
with established contract and grant task forces, and identify opportunities to establish new
task forces with DOJ involvement; (4) coordinate and pursue leads referred by the OIG
Offices of Audit Services and Inspections and Special Inquiries; and (5) identify and pursue
contract and grant fraud investigations proactively.


Environment, Safety, and Health
The Department’s program for cleaning up the environmental contamination caused by
nuclear weapons research, production, and testing is estimated to cost over $200 billion over
the next several decades. With the end of the Cold War, the mission to clean up the
environment has become more essential as a result of more than 50 years of nuclear defense
work and energy research. The OIG has identified environmental cleanup as one of three
Department FY 2007 management challenges that is likely to persist well into the future.
OI’s ES&H program area supports the Department’s Environmental Responsibility strategic
theme. Ensuring the safety and health of the public and the Department’s workers is a top
priority. In FY 2007, OI will continue to: (1) work with established ES&H task forces, (2)
identify opportunities to establish new task forces; and (3) develop and maintain ES&H
contacts in the Department, NNSA, and other Government agencies.


Qui Tams
As a rule, Qui Tam related allegations are complex and staff-hour intensive. As of
September 30, 2006, OI had 23 open Qui Tam investigations with claims alleging fraud of
$157 million. As a result of our efforts, the Government recovered $17 million in FY 2006
in connection with Qui Tam investigations. These investigations often have a major impact



                                            46
OFFICE   OF   INSPECTOR     GENERAL                   U.S.   DEPARTMENT        OF    ENERGY
Office of Investigations




on the Department and generally involve significant allegations of fraud involving millions
of dollars and multiple Federal agencies. OI continues to work closely with the DOJ’s
Commercial Litigation Branch in the investigation and analysis of Qui Tam cases. One such
investigation resulted in $12.5 million returned to the Government for improperly
allocating cost on numerous Government contracts. In FY 2007, OI will continue to: (1)
assist DOJ in investigating and providing analysis of Qui Tam cases; (2) adjust resources
appropriately to ensure priority Qui Tam cases are being resolved in a timely manner; and
(3) identify specific Qui Tam training for OI personnel.


Technology Crimes
Information Technology, another of the Department’s major issue areas, received a
significant amount of OI’s resources and attention during FY 2006. OI’s Technology
Crimes Section (TCS) is staffed by investigators with the specialized skills necessary to
proactively and reactively investigate the expanding number of complex technology crimes
that are occurring within many of the Department’s programs. TCS further strengthens
OI’s support to the Department, including NNSA, in detecting, preventing, and
investigating illegal network intrusions. Utilization of such a group is critical because of the
risks and vulnerabilities on the rise (i.e., security breaches, computer systems intrusions,
virus attacks, and employee misuse). In FY 2006, TCS investigations led to several criminal
convictions against individuals who hacked into Department computer networks. TCS also
provided technical expertise on standard fraud cases.

During FY 2007, TCS will: (1) continue to proactively contribute to and support fraud
investigations through consultations and forensic media analysis; (2) investigate incidents of
technology crimes and non-compliance with applicable regulations involving protection of
the information infrastructure throughout the Department; (3) clarify and extend OI’s role
in technology incident response and investigations in the Department; (4) ensure all TCS
special agents continue to receive required technical training; and (5) refine and provide
technology crimes awareness briefings throughout the Department complex.


Other
In FY 2006, OI issued new performance plans to its investigative staff in compliance with
the Office of Personnel Management requirements in conjunction with Department
mandates. The revised plans provide a clearer, more comprehensive description of
performance elements and requirements. Both quantity and quality of work is addressed.
Additionally, the plans place emphasis on the goals and objectives established by OI. In that
regard, special agents will be required to perform at a level that will result in the
organization achieving its goals and objectives.




                                               47
OFFICE        OF    INSPECTOR   GENERAL                 U.S.   DEPARTMENT         OF   ENERGY
                                                                              Office of Investigations




Proactive Work
Historically, OI’s response to allegations of wrongdoing has been reactive in nature.
However, OI has succeed in implementing a process that streamlined and formalized
proactive case development with a targeted approach designed to ensure more efficient and
effective use of resources.

OI will continue its pursuit of proactive initiatives designed to effect positive change within
the Department and enhance OI’s ability to meet organizational goals and objectives. Close
attention will be paid to OI’s infrastructure needs to ensure adequate skills, tools, and
processes are in place to respond promptly and appropriately to emerging priority issues
identified by the President, the Secretary, the Congress, and the public. Partnerships with
other established law enforcement agencies, Department managers, and employees will be
expanded, and productive sources of information will be further cultivated.




                                              48
OFFICE   OF   INSPECTOR      GENERAL                   U.S.   DEPARTMENT         OF    ENERGY
Office of Inspections and
Special Inquiries

T    he Office of Inspections and Special Inquiries conducts performance and allegation-
     based inspections, as well as special inquiries in response to concerns raised by
Congress, senior managers of the Department, and others. The Office also manages the
OIG Hotline and Management Referral Systems. The Office facilitates management reform
in the Department by evaluating and providing recommendations to improve program
performance.

Although the Office plans a portion of its annual inspection work, it retains flexibility in
order to be able to promptly address concerns and allegations received during the course of
the year. The Office of Inspections and Special Inquiries initiated an annual average of 16
allegation-based inspections over the last 4 years. When planning its performance
inspection work, the Office identifies and prioritizes topics responsive to the President’s
Management Agenda, the Secretary’s Mission Priorities, and the Department’s Management
Challenges as identified by the OIG. Inspections are initiated with consideration given to
their significance and potential impact on Department programs and operations. In light of
current heightened concerns over homeland security, the Office is focusing its resources to
address critical safety and security issues affecting programs and operations throughout the
Department. The office is carrying 36 active inspections into the new fiscal year, and the
following are planned inspections for FY 2007:



National Security
   ■   Internal Controls over Sensitive Compartmented Information Clearances
   ■   Internal Controls over Access to Selected Field Intelligence Elements
   ■   Quarterly Intelligence Oversight Reviews
   ■   Justifications for Obtaining Personnel Security Clearances
   ■   Truck Access to a Selected Department Site
   ■   Adequacy of Security Police Officer Refresher Training
   ■   Security of Heavy Water Surplus at a Department Facility
   ■   Basis for Making DOE/NNSA Security Clearance Determinations




                                              49
OFFICE    OF   INSPECTOR      GENERAL                  U.S.     DEPARTMENT     OF   ENERGY
                                                             Office of Inspections and Special Inquiries




Environmental Management
  ■   Adequacy of the Characterization of Waste
  ■   Internal Controls over Low-level Radioactive Waste at a Department Site



Corporate Management
  ■   Implementation of DOE’s Pandemic Influenza Plan
  ■   Adequacy of Lock-Out/Tag-Out Processes at a Department Site
  ■   Adequacy of Nuclear Safety Policies and Procedures at a Department Facility
  ■   Implementation of Maintenance and Safety Requirements at a Department Site
  ■   Internal Controls over Purchase Card Use
  ■   Utilization of Exhibitor Fees from DOE Sponsored Conferences
  ■   Meeting the Naval Petroleum Reserve 3 Objective




                                            50
OFFICE   OF   INSPECTOR     GENERAL                  U.S.   DEPARTMENT             OF     ENERGY
Appendix A


FY 2007 Performance
Plan Schedule

Office of Audit Services

   AUDIT
   NUMBER           TITLE

PLANNED FISCAL YEAR 2007 PERFORMANCE AUDITS

National Security
   A07AL001         Controls over Nonconforming Nuclear Weapon Parts
   A07AL002         National Training Center
   A07AL003         Quality Assurance over Vendor Supplied Parts
   A07AL004         Sandia National Laboratories Test Capabilities Revitalization Project
   A07AL005         Weapons Accountability at Sandia National Laboratories
   A07DN010         Emergency Preparedness at the Bonneville and Western Area
                    Power Administrations
   A07GT008         Implementation of Homeland Security Presidential Directive-12
   A07LA008         Follow-up of the Dual Axis Radiographic Hydrodynamic
                    Test Facility
   A07LA010         Satellite Base Nuclear Detonation Project at Los Alamos
   A07LL013         Management of NNSA’s Plutonium Experiments
   A07LV017         Consolidation of Special Nuclear Materials at NNSA Sites
   A07LV018         Follow-up of NNSA’s Nuclear Weapons Incident Response Resources
   A07PT021         Security over Nuclear Explosive Like Assemblies
   A07PT022         Management of Nuclear Materials Provided to Domestic Licenses




                                           51
OFFICE   OF   INSPECTOR   GENERAL                  U.S.    DEPARTMENT         OF   ENERGY
                                                      Appendix A: FY 2007 Performance Plan Schedule




   A07PT024         Sandia National Laboratories Management of Non-Nuclear
                    High Explosives
   A07SR035         Follow-up of Recovery of Highly Enriched Uranium Provided to
                    Foreign Countries
   A07SR036         Plutonium Vitrification Project at the Savannah River Site
   A07YT024         Lithium Disposition at the Y-12 National Security Complex


Environmental Management
   A07DN008         Remediation of Former Moab Uranium Processing Site
   A07ET011         Decontamination and Decommissioning Projects
   A07ET012         DUF6 Research and Development Activities
   A07ET013         Environmental Management Disposition of Potentially Contaminated
                    Scrap Metal
   A07ID014         Central Characterization Capability at the Waste Isolation Pilot Plant
   A07ID017         Waste Shipments to the Waste Isolation Pilot Plant
   A07ID018         Disposition of the Department’s Surplus Un-irradiated Nuclear Fuel
   A07ID019         Advance Test Reactor’s Life Extension Program
   A07LA007         Environmental Cleanup at the Los Alamos National Laboratory
   A07LV019         Office of Civilian Radioactive Waste Management’s Canister Based
                    Approach for Repository Design
   A07PR026         Brookhaven National Laboratory’s Environmental Management
                    Completion Program
   A07RL030         Environmental Restoration Disposal Facility at the Hanford Site
   A07RL031         Hanford Environmental Information System
   A07RL032         Hanford Site Solid Waste Disposal Facility
   A07RL033         Integrated Disposal Facility at the Hanford Site
   A07SR037         Transuranic Waste Program at the Savannah River Site


Energy/Science
   A07CH001         Beam Access and Proprietary Usage at the Office of Science’s
                    User Facilities



                                          52
OFFICE   OF   INSPECTOR   GENERAL                   U.S.   DEPARTMENT            OF    ENERGY
Appendix A: FY 2007 Performance Plan Schedule




    A07CH004                Office of Science’s Facilities Plan
    A07DN007                Vehicle Technologies Program
    A07GT011                Federal Energy Regulatory Commission’s Liquefied Natural
                            Gas Terminal
    A07GT015                Federal Energy Regulatory Commission’s Oversight and
                            Investigations Program
    A07OR003                International Thermonuclear Experimental Reactor Project
    A07OR021                Implementation of the Energy Policy Act of 2005
    A07OR022                Operations at the Oak Ridge High Flux Isotope Reactor
    A07OR023                Lessons Learned in Response to Hurricanes Katrina and Rita
    A07OR024                Operational Start-up of the Spallation Neutron Source
    A07PR025                Office of Science’s Climate Change Research Program
    A07PR028                Weatherization Assistance Program
    A07PT019                Energy Use Management at Department Facilities


Corporate Management
    A07CH002                Small Business Opportunities at the Argonne National Laboratory
    A07DN005                Bonneville Power Administration’s Fish and Wildlife Program
    A07DN006                Personal Property Accountability at the Bonneville
                            Power Administration
    A07DN009                Power Marketing Administration Spectrum Relocation Projects
    A07GT009                Follow-up on the Department’s Aviation Management Program
    A07GT012                Development and Implementation of Department Policy and
                            Contractor Requirements
    A07GT013                Management of Directed Funding
    A07GT014                Safety Management within the Department of Energy
    A07ID015                Management of Major Changes to the Baseline Work under the Idaho
                            Cleanup Contract
    A07ID016                Facility Utilization at the Idaho National Laboratory
    A07ID020                Department’s Worker Safety Requirements
    A07LA006                Cerro Grande Project Costs at the Los Alamos National Laboratory


                                                    53
OFFICE     OF    INSPECTOR         GENERAL                    U.S.   DEPARTMENT     OF    ENERGY
                                                      Appendix A: FY 2007 Performance Plan Schedule




  A07LA009          NNSA’s Pilot Oversight Model at the Los Alamos National Laboratory
  A07LL011          Decontamination and Decommissioning Program at the Livermore
                    National Laboratory
  A07LL012          Livermore National Laboratory’s Resolution of Safety Recommendations
  A07LL014          Small Business Opportunities at the Y-12 National Security Complex
  A07LL015          Small Business Opportunities at the Department and NNSA
  A07LL016          University of California Contract Closeout for the Livermore
                    National Laboratory
  A07LV020          Office of Civilian Radioactive Waste Management’s Quality
                    Assurance Function
  A07LV021          Worker Safety Program at the Office of Civilian Radioactive
                    Waste Management
  A07PT012          Development and Implementation of Department Policy and
                    Contractor Requirements
  A07PT016          Management of Precious Metals
  A07PT017          Controls over Protective Force Equipment
  A07PT018          Electrical Safety Program
  A07PT020          Industrial Hygiene Program
  A07RL029          Battelle Memorial Institute’s Planned Construction
  A07RL034          Waste Treatment Plan Procurements of Material
  A07TG025          I-MANAGE eContent Management System Project
  A07TG026          Application of Earned Value Management to Information Technology
  A07TG027          Follow-up on the Department’s Integrated Planning, Accounting, and
                    Budgeting System
  A07TG028          Follow-up on Remote Access to the Department’s Unclassified Systems
  A07TG029          E-Procurement Initiative, Strategic Integrated Procurement
                    Enterprise System
  A07TG030          Security over Portable Handheld Devices
  A07TG031          Implementation of e-DOE Integrated Security System (e-DISS+)
  A07TG032          Foreign National Access to Unclassified Cyber Systems
  A07TG033          Implementation of the Department’s Internet Protocol Version 6 (IPv6)




                                          54
OFFICE   OF   INSPECTOR   GENERAL                   U.S.   DEPARTMENT            OF    ENERGY
Appendix A: FY 2007 Performance Plan Schedule




    A07TG034                Follow-up on the Department’s Telecommunications Infrastructure
    A07PT023                Methods for Providing Security Services at the Department
    A07YT022                Work Authorization System at the Y-12 National Security Complex
    A07YT023                Training of the Secure Transportation Asset Agents
    A07YT025                NNSA Federal Human Capital
    A07YT026                NNSA Contractor Human Capital



PLANNED FISCAL YEAR 2007 GMRA AUDITS
    A07FN001                DOE FY 2006 GMRA
    A07FN002                FERC FY 2006 GMRA
    A07FN003                Isotope Production Distribution FY 2006 GMRA
    A07FN004                Decommissioning and Decontamination FY 2006 GMRA



OTHER PLANNED FISCAL YEAR 2006 FINANCIAL AUDITS
    A07AL027                Sandia FY 2006 SCIC
    A07CH038                Argonne University FY 2006 SCIC
    A07CH039                Iowa State University (Ames) FY 2004-2006 SCIC
    A07ID040                Bechtel BWXT Idaho FY 2005-2006 SCIC
    A07ID041                Battelle Energy Alliance FY 2005-2006 SCIC
    A07ET042                Bechtel Jacobs FY 2006 SCIC
    A07GT010                Implementation of Revised OMB Circular A-123 for 2007
    A07LA028                Los Alamos (UC) FY 2005 SCIC
    A07LA029                Los Alamos National Security LLC FY 2006 SCIC
    A07LA030                Los Alamos (UC) FY 2006 SCIC
    A07LL031                Livermore FY 2006 SCIC
    A07LL032                Stanford FY 2004-2006 SCIC
    A07LV033                Bechtel Nevada FY 2006 SCIC
    A07OR043                UT Battelle FY 2006 SCIC



                                                  55
OFFICE     OF    INSPECTOR         GENERAL                  U.S.   DEPARTMENT       OF   ENERGY
                                                            Appendix A: FY 2007 Performance Plan Schedule




   A07OR044             Oak Ridge Associate University FY 2004-2006 SCIC
   A07PR028             Thomas Jefferson National Accelerator Facilities Costs and Central
                        Office Expenses
   A07RL045             Battelle Memorial (PNNL) FY 2005-2006 SCIC
   A07SR046             Westinghouse Savannah River Company FY 2006 SCIC
   A07YT034             Honeywell FY 2006 SCIC
   A07YT035             BWXT Y-12 FY 2006 SCIC




Office of Inspections and Special Inquiries
   Title


National Security
   Internal Controls over Sensitive Compartmented Information Clearances
   Internal Controls over Access to Selected Field Intelligence Elements
   Quarterly Intelligence Oversight Reviews
   Justifications for Obtaining Personnel Security Clearances
   Truck Access to a Department Site
   Adequacy of Security Police Officer Refresher Training
   Security of Heavy Water Surplus at a Department Facility
   Basis for Making DOE/NNSA Security Clearance Determinations


Environmental Management
   Adequacy of the Characterization of Waste
   Internal Controls over Low-level Radioactive Waste at a Department Site


Corporate Management
   Implementation of DOE’s Pandemic Influenza Plan
   Adequacy of Lock-Out/Tag-Out Processes at a Department Site



                                               56
OFFICE     OF   INSPECTOR    GENERAL                     U.S.    DEPARTMENT            OF    ENERGY
Appendix A: FY 2007 Performance Plan Schedule




    Adequacy of Nuclear Safety Policies and Procedures at a Department Facility
    Implementation of Maintenance and Safety Requirements at a Department Site
    Internal Controls over Purchase Card Use
    Utilization of Exhibitor Fees from DOE Sponsored Conferences
    Meeting the Naval Petroleum Reserve 3 Objective




                                                57
OFFICE     OF    INSPECTOR         GENERAL             U.S.   DEPARTMENT          OF   ENERGY
THIS PAGE INTENTIONALLY LEFT BLANK
Appendix B



OIG Responsibilities
and Authorities
The Inspector General Act of 1978, as amended, requires the OIG to:
   ■   Conduct independent and objective audits and investigations;
   ■   Promote economy, efficiency, and effectiveness;
   ■   Prevent and detect waste, fraud, and abuse;
   ■   Review pending legislation and regulations; and,
   ■   Keep the Secretary and Congress fully and currently informed.



Other Mandates
   ■   Government Performance and Results Act (GPRA) of 1993. Continuous review of
       the Department’s implementation.
   ■   Executive Order 12863, “President’s Foreign Intelligence Advisory Board,” 1993.
       Reports to the Intelligence Oversight Board as required quarterly and “as necessary or
       appropriate.” This includes reviews to ensure the Department’s intelligence activities
       are conducted in accordance with existing requirements of Executive Order 12333,
       “United States Intelligence Activities.”
   ■   Government Management Reform Act (GMRA) of 1994. Annual audit of
       Department-wide and designated component financial statements. This effort
       currently requires approximately 24 percent of the OIG’s resources, including
       contractual assistance from an external audit firm.
   ■   National Defense Authorization Act of 2000. Annual review of Department policies
       and procedures with respect to the export of sensitive U.S. military technologies and
       information to countries and entities of concern.
   ■   Reports Consolidation Act of 2000. Annual audit to identify the most significant
       management and performance challenges facing the Department.
   ■   Federal Information Systems Management Act (FISMA) of 2002. Annual review of
       Department information security systems.



                                              59
OFFICE    OF   INSPECTOR     GENERAL                     U.S.   DEPARTMENT      OF   ENERGY
                                                      Appendix B: OIG Responsibilities and Authorities




  ■   Section 522 of the Consolidated Appropriations Act of 2005. Biennial review of the
      actions of the Department’s Chief Privacy Officer.
  ■   OMB Circular No. A-123, Management Accountability and Control. New and
      expanded audit requirements are anticipated.
  ■   Department of Energy Orders. Audits of statements of costs incurred and claimed by
      the Department’s integrated contractors.




                                          60
OFFICE   OF   INSPECTOR    GENERAL                 U.S.   DEPARTMENT               OF    ENERGY
Appendix C



OIG Organization
The OIG is organized into three major functional areas and a corporate support office:
   ■   Office of Audit Services
   ■   Office of Investigations
   ■   Office of Inspections and Special Inquiries
   ■   Office of Resource Management



OIG field offices are located at key Department sites around the Nation.




                                               61
OFFICE     OF   INSPECTOR     GENERAL                U.S.   DEPARTMENT       OF   ENERGY
THIS PAGE INTENTIONALLY LEFT BLANK
Appendix D



Validation and Verification
The chart below represents how the OIG validates and verifies its performance activities.


Data Sources:        OIG Semiannual Reports to Congress; Inspector General Act of 1978,
                     as amended; Government Management Reform Act; Government
                     Performance and Results Act; Government Information Security
                     Reform Act; False Claims Act; Executive Order 12863, “President’s
                     Foreign Intelligence Advisory Board”; and, Executive Order 12333,
                     “United States Intelligence Activities.”

Frequency:           Biennially/Annually/Semiannually/Quarterly.

Data Storage:        OIG Energy Inspector General Project Tracking System.

Verification:        OIG policies and procedures; Yellow Book Standards; President’s
                     Council on Integrity and Efficiency Quality Standards for
                     Investigations and Inspections; and internal and external peer reviews.




                                             63
OFFICE   OF     INSPECTOR   GENERAL                   U.S.   DEPARTMENT       OF   ENERGY
